     USDA
                           UNITED STATES DEPARTMENT               OF AGRICUL TURE

                                        OFFICE OF INSPECTOR     GENERAL

                                             Washington   D.C. 20250




    DATE'           DEC   2 6    2002


    REPL y TO
    ATTN OF:       06401-15-FM

    SUBJECT:       u.s. Department of Agriculture
                   Commodity Credit Corporation's Financial Statements for
                   Fiscal Year 2002

    TO             Board of Directors
                   Commodity Credit Corporation

    ATTN'          Kristine Chadwick
                   Controller
                   Commodity Credit Corporation

    The report presents the auditors' opinion on the Commodity Credit Corporation's (CCC)
    principal financial statements for the fiscal year ending September 30, 2002. Reports
    on CCC's internal controls structure and its compliance with laws and regulations are
    also provided.

    KPMG Peat Marwick LLP, an independent         certified public accounting   firm, conducted
    the audit. We monitored    the progress of the audit at all key points, reviewed the
    workpapers,    and performed     other procedures,     as we deemed       necessary.     We
    determined the audit was conducted      in accordance    with generally accepted auditing
    standards, Government    Auditing Standard~ (issued by the Comptroller        General of the
    United States), and the Office of Management       and Budget's Bulletin No.01-02,    "Audit
    Requirements for Federal Financial Statements."

    It is the opinion of KPMG Peat Marwick LLP, that the financial statements present fairly,
    in all material respects, CCC's financial position as of September 30, 2002, and its net
    costs, changes in net position, budgetary resources, and reconciliation of net costs to
    budgetary obligations for the year then ended, in conformity with generally accepted
    accounting principles. We concur with that opinion. The KPMG Peat Marwick LLP
    report on CCC' s internal control structure over financial reporting identified five
    reportable conditions that it also considered material weaknesses. Specifically, KPMG
    identified material weaknesses in CCC's:

       .    Information security controls;
       .    Financial system functionality and related processes;




~
    .   Funds control mechanisms;
    .   Financial accounting and reporting processes and procedures; and
    .   Budgetary accounting and reporting policies and procedures.

The results of KPMG's tests of compliance with laws and regulations            disclosed
instances of noncompliance with the laws and regulations identified below:

        The   Computer Security Act of 1987;
   .    The   Government     Information Security Reform Act;
        The   Debt Collection Improvement Act of 1996; and
   .    The   Federal Financial Management       Improvement  Act of 1996,

In accordance with Departmental    Regulation  1720-1, please furnish a reply within 60
days describing the corrective actions taken or planned, including the timeframes      to
address   the reports'  recommendations.      Please   note the regulation   requires   a
management     decision to be reached on all findings and recommendation        within a
maximum of 6 months from report issuance.



   ?-~/                     )) ,
RICHARD D. LONG                      ~

Assistant Inspector General
  for Audit
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                           COMMODITY CREDIT CORPORATION
                                             September 30, 2002


                                              Table of Contents




Independent Auditors' Report

    Exhibit 1- Material Weakness

   Exhibit 2- Management's      Response to Findings Contained in the Independent
   Auditors' Report


Consolidated Financial Statements

   Management's Discussion and Analysis

   Consolidated Financial Statements

   Notes to the Consolidated Financial Statements


Required Supplementary Stewardship Information (Unaudited)

   Schedule I -Wetlands     Reserve Program


Required Supplementary Information (Unaudited)

   Schedule 2- Supporting Schedule to the Combined Statement of Budgetary
   Resources

   Schedule 3 -Intergovernmental      Amounts


Other Accompanying fufonnation (Unaudited)

   Schedule 4 -Change     in Inventory,   By Commodity

   Schedule 5- Supporting Schedule to the Consolidated     Statement of Net Cost
INDEPENDENT AUDITORS' REPORT
                   2001 M Street, NW
                   Washington, DC 20036




                                                    Independent Auditors’ Report


To the Inspector General
U.S. Department of Agriculture

To Commodity Credit Corporation

We have audited the accompanying consolidated balance sheet of the Commodity Credit Corporation
(CCC) as of September 30, 2002, and the related consolidated statements of net cost, changes in net
position and financing; and the combined statement of budgetary resources (hereinafter referred to as the
“consolidated financial statements”) for the year then ended. The objective of our audit was to express an
opinion on the fair presentation of these consolidated financial statements.

The financial statements of CCC as of September 30, 2001 were audited by the U.S. Department of
Agriculture, Office of Inspector General (OIG) whose report, dated February 26, 2002, expressed an
unqualified opinion on the consolidated balance sheet, statement of net cost, and statement of changes in
net position, and a disclaimer of opinion on the combining statements of budgetary resources and
financing, because CCC was not able to provide sufficient and competent evidential matter to support
material line items on those statements.

In connection with our audit, we also considered CCC’s internal control over financial reporting and
tested CCC’s compliance with certain provisions of applicable laws and regulations that could have a
direct and material effect on its consolidated financial statements.

SUMMARY

As stated in our opinion on the consolidated financial statements, we concluded that CCC’s consolidated
financial statements as of and for the year ended September 30, 2002, are presented fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States of America.

Our consideration of internal control over financial reporting resulted in the following conditions being
identified as reportable conditions:

   Improvement needed in information security controls;
   Improvement needed in financial system functionality and related processes;
   Improvement needed in funds control mechanisms;
   Improvement needed in financial accounting and reporting policies and procedures; and
   Improvement needed in budgetary accounting and reporting policies and procedures.


                  KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                  a member of KPMG International, a Swiss association.
We consider all of the reportable conditions above to be material weaknesses. The results of our tests of
compliance with certain provisions of laws and regulations disclosed instances of noncompliance with the
following laws and regulations that are required to be reported under Government Auditing Standards,
issued by the Comptroller General of the United States, and Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements:

   Computer Security Act of 1987 and Government Information Security Reform Act (GISRA);
   Debt Collection Improvement Act of 1996; and
   Federal Financial Management Improvement Act of 1996 (FFMIA).

The following sections discuss our opinion on CCC’s consolidated financial statements, our consideration
of CCC’s internal control over financial reporting, our tests of CCC’s compliance with certain provisions
of applicable laws and regulations, and management’s and our responsibilities.

OPINION ON THE CONSOLIDATED FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheet of the Commodity Credit Corporation as
of September 30, 2002, and the related consolidated statements of net cost, changes in net position and
financing; and the combined statement of budgetary resources, for the year then ended.

The financial statements of CCC as of September 30, 2001 were audited by the U.S. Department of
Agriculture, Office of Inspector General whose report, dated February 26, 2002, expressed an unqualified
opinion on the consolidated balance sheet, statement of net cost, and statement of changes in net position,
and a disclaimer of opinion on the combining statements of budgetary resources and financing because
CCC was not able to provide sufficient and competent evidential matter to support material line items on
those statements.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of CCC as of September 30, 2002, its net costs, changes in net position,
reconciliation of net costs to budgetary obligations, and budgetary resources, for the year then ended, in
conformity with accounting principles generally accepted in the United States of America.

The information in the Management’s Discussion and Analysis, Required Supplementary Stewardship
Information and Required Supplementary Information sections is not a required part of the consolidated
financial statements, but is supplementary information required by accounting principles generally
accepted in the United States of America or OMB Bulletin No. 01-09, Form and Content of Agency
Financial Statements. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this information.
However, we did not audit this information and, accordingly, we express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The Other Accompanying Information included in Schedules 4 and 5 is presented for
purposes of additional analysis and is not a required part of the consolidated financial statements. We did
not audit this information and, accordingly, we express no opinion on it..

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our


                                                 2                           Independent Auditors’ Report
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect CCC’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the consolidated financial
statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the consolidated financial statements being audited, may
occur and not be detected within a timely period by employees in the normal course of performing their
assigned functions.

In our fiscal year 2002 audit, we noted certain matters, described in Exhibit 1, involving internal control
over financial reporting and its operation that we consider to be reportable conditions. We believe that all
of the reportable conditions presented in Exhibit 1 are material weaknesses. Certain matters noted in
Exhibit 1 were not reported by CCC in its fiscal year 2002 internal control self assessment, conducted
under the Federal Managers’ Financial Integrity Act of 1982 (FMFIA).


                                             * * * * *

We also noted other matters involving internal control over financial reporting and its operation that we
have reported to the management of CCC in a separate letter dated December 13, 2002.

COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of compliance with certain provisions of laws and regulations, as described in the
Responsibilities section of this report, exclusive of the FFMIA, disclosed two instances of noncompliance
with the following laws and regulations that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 01-02, and are described below.

Computer Security Act of 1987 and GISRA. The Computer Security Act of 1987, requires that Federal
agencies implement acceptable information security practices, such as mandatory periodic training for all
system users, to improve the security and privacy of sensitive information maintained in Federal computer
systems. More recently, GISRA was passed as part of the Defense Authorization Act of 2000, and
mandates that Federal agencies implement processes and controls to maintain an effective information
security program, including planning, risk assessment, training, and evaluations in such a manner to
comply with policy guidance contained in OMB Circular A-130, Management of Federal Information
Resources. We noted that the Farm Service Agency (FSA)/CCC needs to improve its level of compliance
with the Computer Security Act and GISRA by implementing additional controls and processes
supporting its entity wide security program and operating device security. These matters are described in
Exhibit 1.

Debt Collection Improvement Act. The Debt Collection Improvement Act of 1996 (DCIA) is intended to
significantly enhance the Federal Government’s ability to service and collect debts. Under the DCIA,
Treasury assumes a significant role for improving government-wide receivables management. The DCIA
requires Federal agencies to refer eligible delinquent non-tax debts over 180 days to U.S. Treasury for the
purpose of collection by cross-servicing or the offset program. The results of our tests of compliance with
DCIA disclosed instances where CCC was not in compliance with certain provisions of the Act.
Specifically, we noted that some eligible debts were not forwarded to Treasury for cross-servicing or the
offset program. These matters are described in Exhibit 1.



                                                  3                             Independent Auditors’ Report
The results of our tests of compliance with other laws and regulations, exclusive of FFMIA, disclosed no
instances of noncompliance that are required to be reported under Government Auditing Standards or
OMB Bulletin No. 01-02.


                                            * * * * *

FFMIA. The results of our tests of FFMIA disclosed instances, described in detail in Exhibit 1, where
FSA/CCC’s financial management systems, did not substantially comply with Federal financial
management systems requirements, Federal accounting standards, or the United States Government
Standard General Ledger at the transaction level.

FFMIA mandates that Federal financial management be advanced by ensuring that Federal financial
management systems can and do provide reliable, consistent disclosure of financial data, and that they do
so on a basis that is uniform across the Federal government from year to year consistently using
accounting principles generally accepted in the United States of America. Federal agencies need to
comply with FFMIA by adhering to policies established by OMB, such as OMB Circular A-127,
Financial Management Systems, and OMB Circular A-130.

A summary of the instances of FFMIA non-compliance noted in Exhibit 1 follow:

   FFMIA requires that Federal agencies implement information security controls and contingency
    planning capabilities in accordance with OMB Circular A-130. As noted above, FSA/CCC needs to
    improve in these areas to be in compliance with Circular A-130.

   FFMIA requires that Federal agencies implement financial systems controls in accordance with OMB
    Circular A-127. We noted several areas where FSA/CCC can improve the controls and processes over
    financial systems to better comply with Circular A-127. For example, interfaces between FSA/CCC’s
    core financial system and financial feeder systems can be improved to provide for more efficient
    financial processing; the level of training for financial management systems users can be improved.

   FFMIA requires that Federal agencies’ comply with the Federal accounting standards using the United
    States Government Standard General Ledger at the transaction level. We noted that CCC’s financial
    systems and processes for posting transactions can be improved. For example, we noted that
    budgetary entries recorded for cash collections from inventory sales were recorded incorrectly, as the
    program code used to record collections for certain types of inventory sales posted an expenditure
    refund instead of a revenue collection.

RESPONSIBILITIES

Management’s Responsibilities

The Government Management Reform Act of 1994 (GMRA) requires each Federal agency to report
annually to Congress on its financial status and any other information needed to fairly present its financial
position and results of operations. To meet the GMRA reporting requirements, CCC prepares annual
consolidated financial statements.




                                                 4                           Independent Auditors’ Report
Management is responsible for:

   Preparing the consolidated financial statements in conformity with accounting principles generally
    accepted in the United States of America;

   Establishing and maintaining internal controls over financial reporting, preparation of the
    Management’s Discussion and Analysis (including the performance measures), the required
    supplementary information, and the required supplementary stewardship information; and

   Complying with laws and regulations, including FFMIA.

In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies. Because of inherent limitations in internal
control, misstatements, due to error or fraud may nevertheless occur and not be detected.

Auditors’ Responsibilities

Our responsibility is to express an opinion on the fiscal year 2002 consolidated financial statements of
CCC based on our audit. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America, the standards applicable to financial audits contained in
Government Auditing Standards and OMB Bulletin No. 01-02. Those standards and OMB Bulletin No.
01-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement.

An audit includes:

   Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
    financial statements;

   Assessing the accounting principles used and significant estimates made by management; and

   Evaluating the overall consolidated financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2002 audit, we considered CCC’s internal control over
financial reporting by obtaining an understanding of CCC’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements.
We limited our internal control testing to those controls necessary to achieve the objectives described in
OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all internal controls
relevant to operating objectives as broadly defined by FMFIA. The objective of our audit was not to
provide assurance on internal control over financial reporting. Consequently, we do not provide an
opinion thereon.

As required by OMB Bulletin No. 01-02, we considered CCC’s internal control over required
supplementary stewardship information by obtaining an understanding of CCC’s internal control,
determining whether these internal controls had been placed in operation, assessing control risk, and
performing tests of controls. Our procedures were not designed to provide assurance on internal control
over required supplementary stewardship information and, accordingly, we do not provide an opinion
thereon.


                                                 5                           Independent Auditors’ Report
As further required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in the Management’s Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertions. Our procedures were not designed to provide assurance on internal
control over performance measures and, accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether CCC’s fiscal year 2002 consolidated financial
statements are free of material misstatement, we performed tests of CCC’s compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material effect on
the determination of consolidated financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 01-02, including certain provisions referred to in FFMIA. We
limited our tests of compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws and regulations applicable to CCC. Providing an opinion on compliance with
laws and regulations was not an objective of our audit and, accordingly, we do not express such an
opinion.

Under OMB Bulletin No 01-02 and FFMIA, we are required to report whether CCC’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

DISTRIBUTION

This report is intended for the information and use of CCC’s management, the USDA Office of the
Inspector General, OMB and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




December 13, 2002




                                                6                          Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




                                           INTRODUCTION

The internal control weaknesses discussed in this report, and the Commodity Credit Corporation’s (CCC)
progress toward correcting these weaknesses, are discussed in the context of CCC’s existing statutory and
organizational structure. We recognize that any recommended information technology (IT) control
enhancements pertaining to CCC operations cannot be implemented solely by CCC, because CCC
applications are in many cases hosted on systems managed by the United States Department of
Agriculture (USDA) and the USDA Farm Service Agency (FSA). As a result, several of the IT control
weaknesses identified in this report will require the combined effort of USDA, FSA/CCC management.

Exhibit 1 describes the reportable conditions, all of which are considered to be material weaknesses as of
and for the year ended September 30, 2002, and our recommendations. CCC management’s response is
presented in Exhibit 2.

                                      MATERIAL WEAKNESSES

The material weaknesses in FSA/CCC’s internal control, as of and for the year ended September 30, 2002,
are summarized below.

1. IMPROVEMENT NEEDED IN INFORMATION SECURITY CONTROLS.

Information security management is a critical component in protecting sensitive and critical FSA/CCC
information resources and financial data. The citizens of the United States entrust the stewardship of
Federal government financial resources and assets to government financial and program managers.
Without effective information security controls over financial systems and supporting systems, there is
substantial risk that the resources under stewardship may be exposed to unauthorized modification,
disclosures, loss, or impairment.

Information security weaknesses have been identified in FSA/CCC’s processing for several years by the
USDA Office of Inspector General (OIG). In response, FSA/CCC has recently undertaken several
initiatives to improve its information security program capabilities. For example, during fiscal year 2002,
FSA/CCC:

   Performed an Office of Management and Budget (OMB) Circular A-127, Financial Management
    Systems, self assessment of CORE, the primary FSA/CCC financial system, which identified the need
    for several improvements, including improvements related to information security;

   Initiated a system risk assessment process using an automated software tool; and

   Performed periodic tests of network and system devices to help identify potential vulnerabilities.

These accomplishments are commendable, but more needs to be done to ensure appropriate levels of
confidentiality, integrity, and availability of sensitive and critical information systems and resources.
Specifically, we noted several areas, detailed below, where improvements are needed in establishing and
maintaining sustainable and repeatable information security controls affecting FSA/CCC’s financial
systems environment as well as other sensitive/mission critical systems and processes.




                                                1.1                          Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




Entity-wide Information Security Program Management

FSA/CCC lacks a complete information security management program that can be applied to its general
support systems and its various financial systems. Specifically:

   FSA’s information security risk assessment process needs to be improved. FSA’s current risk
    assessment policies and practices do not provide for a consistent, agency-wide approach for
    performing information security risk assessments. Although FSA has had risk assessments performed
    for some of its systems, several different vendors and processes have been used, leading to some
    inconsistency in the process and analysis of the findings. Risk assessment is an initial, and critical,
    step in determining the level of security protections needed for general support systems and computer
    applications. FSA recognizes it needs to improve in this area, and plans to use more consistent policies
    and approach for performing future risk assessments. FSA plans to perform risk assessments for 60
    applications and general support systems by the end of fiscal year 2003.

   We noted that FSA’s general support system security plans and a sample of specific application
    security plans do not consistently meet requirements established in Office of Management and Budget
    (OMB) Circular A-130, Management of Federal Information Resources. For example, the plans did
    not consistently describe the system/application rules of behavior, and reviews of general support
    systems and application security controls were not performed for each system within the three year
    timeframe required by OMB Circular A-130. A contributing factor to this issue is that policies for
    updating USDA security plans have been under development by the USDA Office of the Chief
    Information Officer (OCIO). Recently the USDA CIO issued the final policy guidance for the
    development of security plans, and USDA agencies are now updating security plans to be consistent
    with the guidance. FSA plans to update all its security plans by June 2003 in accordance with the new
    USDA OCIO guidance.

    Maintaining consistent and complete security plans is a critical component of an organization’s entity-
    wide security program. FSA/CCC program managers should rely upon the accuracy and completeness
    of system security plans to make a determination of whether to accept the security risks associated
    with organization’s systems. Without complete security plans, security responsibilities and controls
    may not be adequately documented, leading management to inadvertently rely on security controls
    that could be insufficient to fully ensure system and resource integrity, confidentiality, and
    availability.

   Policies and practices are not in place to ensure the consistent sharing of information between FSA
    offices regarding terminated employees. This has contributed to terminated employees maintaining
    access to FSA systems. For example, we reviewed a listing of 83 terminated FSA employees for the
    period March 23 to August 24, 2002, and found that 23 (28%) still had active FSA system accounts.
    In addition, periodic employee reinvestigations are not consistently performed. Such efforts are
    needed to ensure that terminated employees cannot still access FSA systems.

    Protection from unauthorized access by personnel who best understand an organization’s systems is
    just as important, if not more important, than ensuring protection from hackers/crackers1 who attempt
    unauthorized access over the Internet. Information security industry information shows that although

1 We define a hacker as a person who tries to break into computer systems, but not for malicious purposes. We
define a cracker as a person who breaks into computer systems for malicious purposes.


                                                1.2                          Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




    external hackers/cracker attempts gain the most media attention, the majority of successful, and most
    damaging attacks, are performed by personnel who best understand the systems and business
    processes, such as terminated employees who still have system access.

    The USDA OIG has identified similar weaknesses in prior audits of FSA/CCC internal controls, but
    this matter has not yet been corrected because the coordination between all necessary FSA offices has
    not been sufficient to improve the necessary policies and practices.

   During our audit work at the Vernon County (Missouri); Mississippi County (Missouri); and
    Lauderdale County (Tennessee) County Offices, we noted the lack of consistent and up to date
    information security awareness training for county office personnel. While we were able to identify
    previous security awareness training sessions performed for FSA/CCC Kansas City office personnel,
    security awareness training for county office personnel was not substantiated. Additionally, we noted
    that new county office employees were not consistently provided with security training. Although
    security training for all employees is important, it is especially so for FSA county office personnel, as
    these personnel initiate many of the transactions supporting the FSA/CCC mission. FSA recognizes
    that the security training efforts for county office personnel have not been effective, primarily because
    the training has only consisted of reading materials. During fiscal year 2003 FSA is planning to use an
    interactive Internet security training program recently made available USDA-wide to improve the
    training efforts for all FSA employees.

   A key information security requirement in OMB Circular A-130 relates to the completion and testing
    of system and application contingency plans. Such efforts are important not only to maintain adequate
    information security over systems and resources, but also to maintain processing operations during an
    outage. We identified the following examples where FSA/CCC’s contingency planning efforts need
    improvement:
    ¾ A Continuity of Operations Plan (COOP) specifies the actions necessary to accomplish a smooth
      transition to an alternative site and resumption of business operations. A COOP consists of two
      parts: a disaster recovery plan (DRP) developed by the IT function and a Business Resumption
      Plan (BRP) developed by the core business area. An organization’s contingency planning
      capabilities are based primarily on the effectiveness of the COOP. FSA/CCC’s COOP was last
      updated for the Year 2000 contingency planning efforts, and although several aspects of it are still
      current, other elements of it are not
    ¾ During our test work at three county offices: Vernon County (Missouri); Mississippi County
      (Missouri); and Lauderdale County (Tennessee), we noted that documented and tested
      contingency plans for the offices were not prepared.
    ¾ Results from a recent disaster recovery exercise for the FSA/CCC CORE accounting system, and
      several key feeder systems, indicated that necessary system data elements were not identified as
      critical components of the recovery testing effort.

    A contributing factor to these issues is that the policies and practices for consistently updating and
    maintaining contingency plans need to be improved. FSA/CCC management recognizes this, and plan
    to complete a revised contingency planning policy by January 2003. After the completion of the
    policy, FSA/CCC is planning to update the necessary organizational contingency plans.




                                                1.3                          Independent Auditors’ Report
                                                                             Exhibit 1 – Material Weaknesses




Information Security Weaknesses with Operating Devices

During our testing we noted significant security weaknesses existed on FSA/CCC network and system
devices2. The weaknesses resulted from insufficient device password practices and vulnerable operating
system configurations. The identified weaknesses could be exploited by unauthorized personnel to attack
and penetrate FSA/CCC’s IT environment to ultimately gain access to sensitive financial processing
devices and applications. We also noted weaknesses with system password use at county offices and the
lack of a current remote access policy. Because of the sensitivity of these weaknesses, the details on these
issues are not included in this report, and were provided directly to the FSA Security Office. Many of
these vulnerabilities have been identified by the USDA OIG in prior audits, but have not been fully
addressed because of weaknesses in policies and practices related to securing IT devices.

The device vulnerabilities were identified through the use of a combination of commercial security
assessment tools and freeware software tools available to the public over the Internet. Several of the
vulnerabilities did not require significant technical expertise to exploit. The device testing that was
performed under this audit was: 1) performed under a specific window of time, 2) performed with the
knowledge of FSA/CCC IT personnel, and 3) halted when a certain level of compromise was obtained.
Hackers/crackers do not operate under such controlled circumstances. If they identify vulnerabilities they
are free to continue probing organization networks and systems whenever they choose. Many
hackers/crackers will gain unauthorized access to system and network devices, then wait several days or
months before attempting further access.

Consequently, FSA/CCC should not interpret the security weaknesses identified during this audit only as
a point in time assessment. Rather, FSA/CCC should, as part of the entity-wide security program and risk
management process, use the results of the audit and the periodic vulnerability scans performed by the
FSA Security Office, to develop technical guidelines for securing network and system devices. This is
also important because any newly implemented network and system devices, or changes to existing
devices, can significantly alter the security posture of the organization. In addition, the information
security community is constantly identifying new vulnerabilities that must be reviewed and considered for
potential impact on the organization.

Recommendations:

The above issues significantly reduce the overall information security controls for FSA/CCC’s financial
systems processing environment, as well as for other sensitive and mission critical FSA/CCC applications.
Therefore, we recommend the following actions to improve FSA/CCC’s overall infrastructure security
environment. FSA/CCC management should:

1. Clearly articulate via policy executive management commitment and support for defining and
   maintaining information security goals and objectives that must be followed by all FSA offices. This
   is an initial step by management that is needed to establish clear internal control objectives and
   techniques (e.g., security risk assessment process, use of strong technical security controls, etc.) for
   maintaining security for its IT environment.



2 Network devices and software are relevant to an agency’s financial internal control structure because, as guided
by OMB Circular A-127, a financial system includes any process by which data about financial events is collected or
transmitted.


                                                   1.4                            Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




2. In concert with USDA guidance and requirements, continue efforts to develop, implement, and
   monitor an agency-wide information security risk assessment process, to include the completion of
   the 60 risk assessments planned for FY 2003.

3. Ensure consistency in completion of system security plans, using appropriate Federal and USDA
   OCIO guidance.

4. Implement enhanced policies and practices regarding removal of system access for terminated
   employees. It is very important that this issue be addressed not only from a system security
   perspective, but also from a personnel management perspective. Consequently, FSA’s Security
   Office, Human Resources Division, and operating unit offices need to work together closely to ensure
   this issue is addressed.

5. Update existing information security training policies and practices to address the use of enhanced
   information security training mechanisms, such as the interactive Internet training program planned
   for fiscal year 2003.

6. Ensure that the planned efforts to update FSA/CCC’s contingency planning policy by January 2003,
   and the subsequent contingency planning documents, are completed, that critical recovery elements,
   both data and system related, are addressed in contingency planning strategy, and that the contingency
   planning strategy is sufficiently tested. These efforts should also include the county office systems
   and business processes.

7. Ensure immediate resolution to the device security weaknesses communicated during the audit.

8. Use the technical device weaknesses identified during this audit and prior OIG audits, results of FSA
   Security Office vulnerability scans, and current industry security guidance to develop stronger
   policies and technical guidelines for securing network and system devices. Communication by
   executive management regarding adherence to the policies and guidelines, as noted in
   Recommendation No.1, is a critical step for ensuring compliance.

2. IMPROVEMENT NEEDED IN FINANCIAL SYSTEM FUNCTIONALITY AND RELATED
   PROCESSES.

Maintaining quality Federal financial management system functionality is critical to increasing the
accountability of financial and program managers, providing better information for decision-making, and
increasing the efficiency and effectiveness of services provided by the Federal government. Proper and
reliable financial management systems must provide for:

   Accountability. Inform taxpayers, Congress, and agency personnel in terms they can readily
    understand, on how the Nation’s tax dollars are spent, and how Federal assets are protected.

   Efficiency and Effectiveness. Provide efficient and effective service to the Federal agency’s internal
    and external customers (e.g., individuals, contractors, partnerships, state and local governments, other
    Federal agencies/organizations, the military, and foreign governments).




                                                1.5                          Independent Auditors’ Report
                                                                       Exhibit 1 – Material Weaknesses




   Better Decision-Making. Provide to Congress, agency heads and program managers, timely reports
    linking financial results and program data so that financial and program results of policy and program
    decisions can be identified, tracked, and forecasted more accurately3.

FFMIA mandates that Federal financial management be advanced by ensuring that Federal financial
management systems and accounting standards be implemented to provide reliable, consistent disclosure
of financial data. OMB Circular A-127 sets forth policies for establishing and maintaining Federal
financial management systems in accordance with FFMIA.

We noted examples where FSA/CCC’s financial systems processing environment could be improved to
better support CCC’s financial processes and comply with FFMIA requirements and OMB A-127 policy
guidance. Specifically, we noted the following:

   CCC’s financial accounting consolidation and reporting system, Hyperion, needs to have improved
    system controls and documentation. Specifically, we noted that:
    ¾ System access control management needs improvement. User passwords can be as few as two
      characters, and the process for adding new users and modifying existing user access levels is not
      consistently documented. This condition elevates the information security risk for the system, as
      potential unauthorized users could more easily compromise the system. According to National
      Institute of Standards and Technology (NIST) guidelines, system passwords should be a minimum
      of six alpha-numeric characters, and the process for managing user access should be well
      documented.
    ¾ There are limited policies and procedures to support the system. For example, there is no system
      user’s guide. Should CCC experience employee turnover, the lack of such documents will make
      the management of the system more difficult and could jeopardize system and financial
      processing. Also, there are no change management procedures to ensure that any new accounting
      requirements, software upgrades, or other changes are approved, tested, and implemented in a
      controlled manner.
    These controls are important for Hyperion, as the system is used to consolidate and generate CCC’s
    annual financial statements, and track post year-end close adjusting entries. Consequently, data loss
    from unauthorized access or system processing issues could negatively impact CCC’s financial
    reporting process. Contributing factors to these issues include: 1) the lack of a strong entitywide
    security program, as noted earlier in this report, and 2) the primary focus of the Hyperion
    implementation being on system functionality, with less of a focus on implementing information
    security controls and developing supporting system policies and other documentation.

   As reported in prior years by the OIG, FSA/CCC does not have a collection of financial systems and
    processes that are capable of fully monitoring and controlling budgetary resources for all programs.
    For example, as reported by the OIG in its fiscal year 2001 CCC financial audit report, FSA/CCC did
    not effectively utilize available funds control data to timely suspend the disbursement of 2001 Market
    Loss Assistance payments prior to exceeding the $4.6 billion limitation. This occurred, in part,
    because FSA/CCC does not have an integrated system to track and govern the status of obligations
    and administrative limitations established by legislation or agency policy and is dependent upon


3 From the Joint Financial Management Improvement Program (JFMIP) Core Financial System Requirements,
dated November 2001.


                                               1.6                         Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




    manual processes. The use of manual processes and reconciliations to manage budgetary accounts
    subjects CCC’s overall funds control process to significant control risk.

   We noted that several FSA/CCC personnel were familiar with CORE financial system processes. In
    addition, FSA/CCC has strived to establish processes so that accounting personnel have a thorough
    knowledge of the overall financial process as well as having accountants with specific knowledge in
    each of the main accounting areas; such as debt management, cash management, and general ledger
    processing. However, as the OIG has noted in prior year audits, we also noted the need for FSA/CCC
    accountants to improve their knowledge of financial system and process operations. For example, we
    noted the need to provide additional training to personnel responsible for posting accounting entries in
    accordance with the U.S. Government Standard General Ledger (SGL), including the
    budgetary/proprietary relationships. We also noted that the budgetary entries recorded for cash
    collections from inventory sales were recorded incorrectly, as the program code used to record
    collections for certain types of inventory sales posted an expenditure refund (by debiting account 4902
    Delivered Orders-Obligations Unpaid) instead of a revenue collection (by debiting account 4266
    Other Actual Business-Type Collections from Non-Federal Sources). As a result of our audit work,
    CCC posted an adjusting journal entry for over $46.8 million after the general ledger had been closed.

   Interface controls between feeder systems and CORE can be improved. For example:
    ¾ Insufficient system change controls and testing controls with the Processed Commodity Inventory
      Management System (PCIMS) resulted in approximately $3.5 million in milk product being listed
      in PCIMS but not in CORE. Upon notification of the condition by the financial audit team,
      FSA/CCC issued an emergency change request to correct the problem and also began attempting
      to identify the full extent of the problem and the impacted transactions. Ultimately, the
      transactions that were impacted were not reentered into CORE, but were accounted for with a
      summary journal entry. Although the dollar amount is not significant to CCC’s financial
      statements, the lack of sufficient change controls and testing controls that contributed to this issue
      elevate concerns with FSA/CCC’s overall system control environment.
    ¾ Legacy systems in operation at county offices contribute to financial processing problems. For
      example, in September 2002, as CCC was performing financial year-end processing, there were
      significant processing delays caused by the magnitude of data transmitted from county offices to
      CORE. FSA/CCC is aware of the problems being caused by the legacy county office systems, and
      is planning to upgrade many county office systems during fiscal year 2003 as part of the Common
      Computing Environment (CCE) initiative.

   Because of the financial systems challenges FSA/CCC faces, several of which are noted in this report,
    during fiscal year 2002 FSA/CCC performed an FFMIA self assessment to identify specific areas of
    improvement. This assessment highlighted FSA/CCC’s substantial non-compliance with FFMIA in
    the areas of Federal financial system requirements and Federal accounting standards. Specific areas of
    improvement noted in the FFMIA self assessment include the need:
    ¾ For more complete implementation of various feeder systems interfaces with CORE. For
      example, needed interface enhancements were noted for the CORE financial system and the
      General Sales Manager (GSM) system.
    ¾ To perform a self assessment for all CCC financial feeder systems to identify areas of
      improvement.




                                                1.7                          Independent Auditors’ Report
                                                                       Exhibit 1 – Material Weaknesses




    ¾ To automate the current manual oriented financial accounting entry process with additional
      system functionality.

    FSA/CCC has developed a corrective action plan to address the identified FFMIA weaknesses, and the
    plan includes action steps for implementing a new GSM system and related interface to CORE, and
    implementing an E-Funds control system to help address current manually oriented funds control
    processes.

   During fiscal year 2002 FSA/CCC also performed an OMB Circular A-127 self assessment for CCC-
    CORE. This self assessment effort is commendable, but we noted areas where the assessment process
    could be enhanced. For example:
    ¾ Although the CCC-CORE OMB Circular A-127 self assessment was conducted in accordance
      with FFMIA checklists provided by the General Accounting Office (GAO), the review was not
      fully focused on assessing how the CCC-CORE financial system is being operated to support
      existing CCC financial business processes. In several cases the financial systems review team
      noted that although CCC-CORE is capable of meeting FFMIA and Joint Financial Management
      Improvement Program (JFMIP) requirements, CCC does not use the mandatory system
      capabilities to support existing business processes.
        For example, the GAO checklist question was as follows: “does the system incorporate both
        proprietary and budgetary accounts in the system, and maintain the relationships between
        accounts as described in the SGL?” CCC answered in the affirmative. However, during recent
        OIG audits it has been noted that proper budgetary and proprietary accounting relationships were
        not maintained within CCC-CORE. In addition, CCC acknowledged in its standard operating
        procedures for its CCC-CORE account analysis that differences do exist between budgetary and
        proprietary accounts and, in some cases, these differences existed since the inception of CORE.
        CCC personnel stated that the CCC-CORE system provides for this function, and they are
        reviewing current business practices to fully incorporate the system functionality. Consequently,
        the reviews do not provide a fully accurate depiction of the system capabilities as being used by
        FSA/CCC. Such a review methodology makes it difficult for CCC to adequately plan for
        additional functionality that is mandatory per FFMIA and JFMIP requirements.
    ¾ The CCC-CORE self assessment did not fully address prior year audit findings. For example, in
      the fiscal year 2001 CCC financial audit report, the OIG noted concerns with the CORE posting
      models. However, the financial systems review team did not address posting model issues raised
      by the OIG. Although there are other mechanisms by which CCC tracks prior year OIG findings,
      such as the monthly Major Management Initiatives report, prior year OIG findings were not
      specifically addressed in the CCC-CORE OMB Circular A-127 self assessment. This is important
      to ensure that all relevant financial issues and findings are being addressed by the self assessment
      reviews.
    ¾ The CCC-CORE self assessment, conducted from February 2002 through May 2002, did not take
      into account the most current applicable system guidance. For example, the review was based on
      the February 2000 GAO FFMIA checklist, which references the February 1999 JFMIP Core
      Financial System requirements. However, in November 2001 JFMIP issued an updated version of
      the Core Financial System requirements. For future reviews, CCC should complement the use of
      the GAO checklist with any relevant new guidance.




                                               1.8                         Independent Auditors’ Report
                                                                       Exhibit 1 – Material Weaknesses




   We noted that these issues occurred because although guidance was established by FSA/CCC for
   performing the CCC-CORE self assessment, the guidance could be made more specific to encompass
   the above issues.

Recommendations:

We recommend that FSA/CCC:

9. Require Hyperion user passwords to have a minimum of six alpha-numeric characters, consistent with
   OMB Circular A-130 and NIST guidance, and implement a documented policy for managing
   Hyperion access.

10. Develop and document policies related to the guidance, control, and monitoring of the Hyperion
    application, such as a system user guide and system change control policies and procedures. This
    should also include policies and procedures relating to system changes regarding accounting
    requirements (i.e., changing the mapping of accounts to financial statement line-items).

11. Continue to take steps to provide CORE cross training, sharing of knowledge, and the documentation
    of key CORE system processes, as recommended by the OIG in its fiscal year 2001 audit report. Such
    efforts would not only provide additional training and knowledge to staff, but will also help address
    continuity of knowledge if staff turnover occurs. For example, training efforts could be enhanced in
    regards to SGL accounting.
12. Implement improved change control and system testing policies to help prevent future issues similar
    to the PCIMS processing problem.

13. Continue with plans to implement the CCE initiative to help address financial processing problems
    caused by legacy county office systems.

14. Continue with plans to implement action items from its FFMIA remediation plan, such as the as
    implementation of the GSM system and E-Funds control system. As the E-Funds control system is
    further implemented, FSA/CCC should ensure that JFMIP’s Core Financial Management System
    Requirements, especially those related to funds management, are applied to the system. If the E-Funds
    control system is further delayed, FSA/CCC should explore other methods to implement integrated
    system controls to ensure that the total of disbursements made and obligations incurred do not exceed
    the applicable legislative or agency funding authority at the time a transaction is recorded. The
    controls should ensure that responsibility for authorizing transactions is well documented and proper
    accountability for obligation and disbursement transactions is maintained.

15. Ensure that future financial system reviews are based on the actual capabilities of the systems under
    review, taking into account existing CCC business processes. The reviews should also be designed to
    take into account steps to address prior year audit findings, including any remaining CORE posting
    model issues, and be based on the most current information available.




                                              1.9                          Independent Auditors’ Report
                                                                        Exhibit 1 – Material Weaknesses




3. IMPROVEMENT NEEDED IN FUNDS CONTROL MECHANISMS.

As reported in prior years, FSA/CCC does not have a collection of financial systems and processes that
are capable of fully monitoring and controlling budgetary resources for all programs at the transaction
level. As reported by the USDA OIG in its fiscal year 2001 report, FSA/CCC did not effectively utilize
available funds control data to timely suspend the disbursement of 2001 Market Loss Assistance payment
prior to exceeding the $4.6 billion limitation. This occurred, in part, because FSA/CCC does not have an
integrated system to track and govern the status of obligations and administrative limitations established
by legislation or agency policy and is dependent upon manual processes.

During fiscal year 2002, FSA/CCC took action to improve this process, however, many reports are
prepared manually because the data sources exist in several different systems which are not interfaced.
For example, FSA/CCC:

   Developed a manually prepared daily funds tracking report for review by program and agency
    managers. As new programs are funded, they are included in the report and released to program
    managers on a weekly basis.
    In relation to this funds tracking mechanism, CCC developed and implemented an authorized payment
    process for National Program managers to use to authorize payments when funds are within 15
    percent of the budget threshold. This authorized payment process is implemented for any program that
    reaches the 15 percent threshold and still has payments due. It allows program managers to
    specifically identify where the remaining funds are being expended; and to monitor payments to
    ensure funds are not disbursed in excess of legislative or agency limitations.

   Utilized a manual tracking report for reimbursable agreements that monitors disbursements against
    apportionments in order to determine funds are not disbursed in excess of the related apportionments.

   Developed user requirements for an E-Funds control system and planned to implement the system by
    the end of fiscal year 2002. However, the system implementation was delayed due to other priorities.
    The first phase of the implementation was completed in November 2002, and the full implementation
    is scheduled for later in fiscal year 2003. The E-Funds control system, as currently designed, plans to
    offer functionality with regards to funds allocation, allotment, and management. The E-Funds control
    system is also designed to include security features to ensure that accountability for obligation and
    disbursement transactions is maintained.

FSA/CCC is currently managing funds control for all programs with manual analysis and reconciliation,
meant to partially mitigate the risks associated with the lack of an integrated obligating system. However,
the use of manual processes and reconciliations subjects CCC’s overall funds control objective to
significant control risk.

Funds control is a vital component of any Federal government operation. It requires that an obligation be
recorded prior to disbursement of funds. When a disbursement is processed the systems’ funds control
function will compare the amount to be disbursed to the remaining amount of the obligation to ensure
funds remain available. Only when funds remain available will funds be disbursed. In addition, the Anti-
Deficiency Act provides, in part, that an office or employee of the United States Government may not (a)
make or authorize an expenditure or obligation exceeding an amount available in an appropriation or fund
for the expenditure or obligation; (b) involve the government in a contract or obligation for the payment
of money before an appropriation is made unless authorized by law. Section 1517a.2., of this Act further


                                               1.10                         Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




provides that an agency may not exceed the available amount of an administrative subdivision officially
directed by the agency.

In accordance with part 4 of OMB Circular A-11, the purpose of funds control is to:

   Restrict both obligations and expenditures from each appropriation or fund account to the lower of the
    amount apportioned by OMB or the amount available for obligation and/or expenditure in the
    appropriation or fund account.

   Enable CCC’s management to identify the person responsible for any obligation or expenditure
    exceeding the amount available in the appropriation or fund account, the OMB apportionment or
    reapportionment, the allotments of sub-allotments made by CCC, and statutory limitations, and any
    other administrative sub-division of funds made by CCC.

In addition, the Joint Financial Management Improvement Program (JFMIP) Core Financial System
Requirements, dated November 2001, require agency core financial systems to support the budget
execution process by:

   Providing the capability to compare actual amounts (e.g., commitments and obligations) against the
    original and revised budgeted amounts consistent with each financial planning level;

   Providing the ability to manage and control prior year funds in the current year, including the
    capability to identify prior year and current year de-obligations separately;

   Providing control features that ensure that the amounts reflected in the fund control structure agree
    with the related general ledger account balances at the end of each update cycle; and

   Verifying that funds distributed do not exceed the amount of funds available for allotment or sub-
    allotment at each distribution level.

Therefore, an agency must have an automated funds control system to monitor and control the entire
process. Such control mechanisms must account for all apportionments/appropriations for each
program/fund as well as the related allotments, obligations and disbursements.

Recommendation:

16. We recommend that FSA/CCC continue with plans to implement the E-Funds control system. As the
    E-Funds control system is further designed and planned, FSA/CCC should ensure that JFMIP’s Core
    Financial Management System Requirements, especially those related to funds management, are
    applied to the system. If the E-Funds control system is further delayed, FSA/CCC should explore
    other methods to implement integrated system controls to ensure that the total of disbursements made
    and obligations incurred do not exceed the applicable legislative or agency funding authority at the
    time a transaction occurs. The controls should ensure that responsibility for authorizing transactions is
    well documented and proper accountability for obligation and disbursement transactions is
    maintained.




                                               1.11                          Independent Auditors’ Report
                                                                       Exhibit 1 – Material Weaknesses




4. IMPROVEMENT NEEDED IN FINANCIAL ACCOUNTING AND REPORTING POLICIES
   AND PROCEDURES.

Although FSA/CCC has taken steps to reduce the number of post closing entries, we noted that numerous
adjustments were made to the consolidated financial statements after the general ledger was closed for
fiscal year 2002. As the OIG reported in prior years, CCC’s financial accounting and reporting policies
and procedures should be strengthened to ensure that errors are prevented or identified and corrected
during the fiscal year. During our audit, we noted the following:

   CCC’s current policy for recording liabilities for commodity acquisition is based on receipt of
    invoices, rather than receipt of the commodity inventory. We noted that CCC did not accrue liabilities
    at year-end for grain commodities purchased and received prior to year-end. Also, no accrual entry
    was recorded for processed commodities purchased and received prior to year-end if the invoices were
    not received. During our audit, we noted that the related accruals for commodities purchased should
    have been recorded as follows at September 30, 2002:
    ¾ The accrual for grain commodities purchased should have been approximately $53 million.
      Further, related donation expenses for the Section 416 donations and the P.L. 480 sales/donations
      were understated by $26.2 and $26.8 million respectively. We also noted that during fiscal year
      2002, CCC recorded approximately $31 million for grain commodities purchased and received in
      fiscal year 2001.
    ¾ The accrual for processed commodities should have been approximately $36.1 million. As a
      result, inventory, donation expenses for the Section 416 donations, and the P.L. 480
      sales/donations were understated by $7.6, $13.8, and $14.7 million, respectively. We also noted
      that during fiscal year 2002, CCC recorded approximately $52 million for processed commodities
      purchased and received in fiscal year 2001.
    As a result of our audit, CCC recorded an adjustment, after the general ledger was closed, to properly
    recognize $89.1 million as a liability for commodities payable and the related effect on inventory and
    expenses at September 30, 2002.

   CCC needs to correct certain transaction posting models, as follows:
    ¾ The budgetary entries recorded for cash collections from inventory sales were recorded
      incorrectly, because the program code used to record collections for certain types of inventory
      sales posted an expenditure refund (by debiting account 4902 Delivered Orders-Obligations Paid)
      instead of a revenue collection (by debiting account 4266 Other Actual Business-Type Collections
      from Non-Federal Sources). As a result, CCC’s obligations incurred and spending authority from
      offsetting collections on its Statement of Budgetary Resources were understated. CCC posted an
      adjusting journal entry, after the general ledger was closed, for over $46.8 million.
    ¾ CCC did not record obligation entries for open contracts with undelivered orders in its general
      ledger for inventory purchasing activities. As a result of our audit, CCC posted an adjusting
      journal entry, after the general ledger was closed, for undelivered orders on open grain and
      processed commodity contracts for approximately $130 million and $24 million at September 30,
      2002 and 2001, respectively, and increased the obligations incurred in the Statement of Budgetary
      Resources by $106 million.




                                              1.12                         Independent Auditors’ Report
                                                                       Exhibit 1 – Material Weaknesses




   Although reconciliations were being performed between the subsidiary systems and the CORE general
    ledger, we noted that the current procedures are not effective to ensure that reconciling items
    identified were appropriately followed up and cleared on a timely basis. Specifically, we noted the
    following:
    ¾ The reconciliations of the Grain Inventory Management System (GIMS) to CORE included
      several carry-forward reconciling items related to warehouse-stored local sales that had occurred
      primarily during fiscal year 1999. The warehouse-stored local sales transactions were not posted
      in CORE at the time they occurred due to SCOAP capacity limitations when the system was
      initially implemented in 1999. Some of these transactions were manually recorded in CORE upon
      the receipt of the source documentation from the County Offices (Cos). However, due to
      inadequate documentation from the Cos, not all of the sales transactions were recorded as of
      September 30, 2002. As a result of our audit, CCC recorded an adjusting entry for these
      transactions, after the general ledger was closed, which accounted for $4.2 million in sales
      revenue, $5.3 million in cost of goods sold, and $1.1 million in realized losses from
      appropriations.
    ¾ The PCIMS to CORE reconciliation informal policy allows for a ‘reasonable’ variance between
      the general ledger quantities and the quantities recorded in the subsidiary system. However, no
      official threshold guidelines were established. Consequently, there is a lack of consistency in the
      degree of precision used in preparing the PCIMS to CORE reconciliation and potential material
      differences could go undetected and uncorrected. During our audit, we noted that an unreconciled
      difference of $18.6 million on the December 31, 2001 milk reconciliation was not investigated by
      CCC because it was not considered material. This difference was cleared in January 2002.

   CCC’s policies for calculating the allowance for losses against commodity inventories and commodity
    loans should be reviewed. Specifically, we noted the following:
    ¾ CCC does not maintain policies and procedures describing the theory, assumptions, methods, and
      source data used to forecast realizable unit values for the outstanding direct commodity loans and
      inventory on hand. CCC economists were unable to provide model outputs or other
      documentation in support of the forecasted amounts utilized in calculating the allowance for loan
      and inventory losses at September 30, 2002. Further, there is no documentation to indicate the
      method of loan redemption (i.e., via forfeiture, repayment at principal and interest, or repayment
      at the market value). Therefore, it was necessary for us to hold numerous meetings with CCC’s
      economists to obtain sufficient substantive information with which to gain an understanding of the
      basis for the economic assumptions used by CCC management to calculate the loss reserves.
    ¾ The estimated unit rates used in the calculation of the allowance for inventory and loan losses are
      often based on the mid-point of a price range forecasted by the Interagency Commodity Estimate
      Committee (ICEC). Given the volatility of agricultural commodity prices and the difficulties
      inherent in economic predictions, it is expected that commodity prices will often fall below the
      mid-point of the range forecasted by ICEC, therefore, the dollar impact could vary significantly
      from year to year.
    ¾ The form regularly e-mailed to the economists and commodity experts to collect their forecasts of
      unit rates should be reviewed. Confusion results from the form’s content, incorrect labeling, and
      insufficient direction. During our audit, we noted that the economists and commodity experts
      responsible for developing unit rates were not aware of the purpose for which they were providing
      this information to the Financial Management Division (FMD). Further, although most of them
      were familiar with the estimates in the August 31, 2002 ‘Estimated Losses Relating to


                                              1.13                         Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




        Inventories’ and ‘Estimated Losses Relating to Commodity Loans’ worksheets, they were not
        familiar with the unit rates utilized in the allowance calculation at September 30, 2002.

As a result of our audit, CCC recorded an adjustment, after the general ledger was closed, to increase the
allowance for losses against commodity inventories and loans by $648 million and $18 million,
respectively, in order to bring CCC’s inventory and commodity loan balances to the audited estimated net
realizable value.

   CCC’s policy for monitoring receivables should be improved to ensure that delinquent debts are
    closely monitored to ensure compliance with the Debt Collections Improvement Act of 1996. As
    reported by the USDA OIG in its fiscal year 2001 report, FSA/CCC was not in substantial compliance
    with one provision of DCIA, and receivables older than 60 days were not always converted by the
    field office personnel to claim status and reported to FSA/CCC’s centralized debt servicing system.
    During our audit, we noted that field office personnel did not comply with the timeliness requirements
    for following up on outstanding debts as follows:
    ¾   For 35 of the 68 claims reviewed, notification or demand letters were not sent within the time
        frame established by FSA/CCC policy. DCIA requires that proper due process be given a debtor
        prior to referral to Treasury for cross-servicing or the offset program.
    ¾   For 9 of the 68 claims reviewed, we noted that receivables older than 60 days were not converted
        to claims status. At September 30, 2002, we noted that CCC had more than 8,400 receivables for
        over $25 million older than 60 days that were not converted to claim status.
    ¾   For 10 of the 96 claims reviewed, we noted proper due process was not performed by field office
        personnel to ensure that eligible delinquent debts were transferred to Treasury for cross-servicing.
        At September 30, 2002, we noted that approximately 3,829 receivable balances, totaling
        approximately $17.6 million, were over 180 days past due and could be subject to immediate
        referral to Treasury for cross-servicing or the offset program if they were converted to claim
        status, and determined eligible.

   CCC’s policy for recording liabilities on producer payment programs should be formalized and
    documented in a policies and procedures manual. During our audit, we noted that there was no
    documentation prepared by CCC to identify which programs required accruals at September 30, 2002.
    As a result of our audit, CCC recorded the following adjusting entries, after the general ledger was
    closed:
    ¾ $155 million of annual rental payments for Conservation Reserve Programs to be disbursed to
      eligible producers who were enrolled in the program prior to September 30, 2002.
    ¾ $34 million of Loan Deficiency Payments disbursed in fiscal year 2003, but approved in fiscal
      year 2002;
    ¾ $75 million of Apple Market Loss Assistance Program disbursements made in fiscal year 2003 to
      eligible program participants enrolled in fiscal year 2002;
    ¾ $15 million of payments made in fiscal year 2003 under the Bioenergy Program for production
      levels that the companies achieved during the 4th quarter of fiscal year 2002.




                                               1.14                          Independent Auditors’ Report
                                                                           Exhibit 1 – Material Weaknesses




Recommendations:

We recommend that FSA/CCC:

17. Revise its liability recognition policy to record liabilities for commodities purchased on the same date
    the commodities are received, to ensure that all liabilities are recorded in the proper period.

18. Review and revise the general ledger posting logic, where necessary, to ensure that all required
    budgetary entries are posted correctly when the corresponding proprietary entries are made.

19. Continue to investigate and resolve differences identified on the reconciliations between the feeder
    systems and CORE in a timely manner. Once the cause is identified, applicable adjustments should be
    promptly recorded in the CORE general ledger, supporting documentation should be maintained for
    all adjustments made, and the cause should be rectified to prevent further errors.

20. Formalize its PCIMS reconciliation policy to include a threshold for resolving differences identified
    between the CORE general ledger quantities and the quantities recorded in PCIMS.

21. Compile documentation describing the theory, assumptions, methods, and data used to forecast
    expected dispositions and realizable unit rates for the outstanding direct commodity loans and
    inventory. Additionally, we recommend that economists retain for their records calculations, model
    output, and notes that explain their methodology and forecasts.

22. Evaluate the risk of using mid-point estimates, as it relates to CCC’s financial integrity and to the
    reliability of its financial statements. If unexpected losses and forfeitures are significant, we
    recommend that CCC implement more conservative estimation routines, including the use of the low
    end of the estimated price range.

23. Review the form and content of the document e-mailed to the economists for obtaining their
    estimates, to determine if it fulfills its purpose effectively. Units and unit labels should be specified on
    the form. Further, the form should be accompanied with an explanatory note, which documents the
    nature and purpose of the request. The directions provided by FMD should draw the economist’s
    attention to the sections and fields requiring their attention. Additionally, the economists and
    commodity experts should provide updated unit rate estimates in early October before the fiscal year
    estimates are finalized. Further, we recommend that the economists, commodity experts, and their
    supervisors review the unit rates prior to submission to FMD to ensure that the process is understood
    and the rates are reasonable.

24. Reports should be generated to identify which delinquent receivables have not been sent a demand
    letter on a monthly basis to ensure proper notification is provided to the producers, and identify which
    balances are eligible to be transferred to claim status or to Treasury for cross-servicing or the offset
    program. In addition, the policy should be revised to ensure that these reports are reviewed on a
    timely basis by senior management to ensure that the field offices are following CCC’s policies to
    ensure compliance with DCIA.




                                                 1.15                           Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




25. Formalize its proprietary and budgetary accounting policies through the development and routine
    maintenance of a comprehensive policies and procedures manual for all CCC programs that is based
    on current accounting standards. Additionally, an analysis of programs should be prepared annually to
    identify which programs require year end activity cut off adjustments (e.g., unrecorded liabilities and
    undelivered orders).

5. IMPROVEMENT NEEDED IN                     BUDGETARY          ACCOUNTING           AND     REPORTING
   POLICIES AND PROCEDURES.

During fiscal year 2002, FSA/CCC has taken steps to enhance its procedures over the budget execution
process in accordance with OMB and U.S. Treasury requirements based on recommendations from the
OIG, however significant control weaknesses remain. Throughout the fiscal year, CCC must be able to
ensure through its internal control policies and procedures that the status of its budgetary resources is
properly recorded in the general ledger (e.g., CORE) and reported to OMB on a quarterly and year-end
basis. In addition, these policies must ensure that the status of budgetary resources is properly reported in
the Combined Statement of Budgetary Resources and the related notes to the consolidated financial
statements. The results of our audit procedures for the budget execution process indicate that procedures
must be improved for CCC to ensure that accurate, complete and timely budgetary accounting entries are
made, and that the year end status of budgetary resources are accurately reported. During our audit, we
noted the following:

   Based on recommendations arising from the OIG’s fiscal year 2001 audit, CCC developed and
    implemented a monthly budgetary to proprietary reconciliation process beginning in February 2002,
    designed to ensure that all budgetary and proprietary transactions are properly and timely recorded.
    These reconciliation processes are based on U.S. Treasury guidance and CCC is performing the
    reconciliations on a monthly basis. However, CCC does not consistently perform timely follow up to
    correct the causes of the differences noted and make the necessary adjustments to the general ledger.
    For example, we reviewed reconciliations for the months of March, June and July 2002, and noted
    total differences between budgetary and proprietary cash, advances and accounts payable accounts
    totaling $125 million, $926 million and $1.4 billion, for those months respectively, which were
    subsequently corrected during the year end closing process. The lack of timely follow up increases the
    risk that year end budgetary balances will not be properly adjusted and reported in the combined
    statement of budgetary resources. The lack of timely corrections also increases the risk that balances
    reported to OMB on a quarterly basis through the SF-133 reporting process are not properly stated. In
    addition, untimely follow up can also cause difficulties for the CCC accounting staff during the
    closing process because correcting entries are not made timely, the CCC must review and approve not
    only adjustments arising during the normal course of closing the general ledger, but also adjustments
    arising from interim period activity.

   We noted that CCC’s undelivered orders (UDOs) balances were primarily supported by
    documentation provided by program offices as a result of CCC Kansas City Finance Office (KCFO)
    information requests at September 30, 2002. Certain of this documentation suggested that the program
    offices were not fully versed on the accounting requirements for recording unliquidated obligations.
    Therefore, we requested that CCC management develop estimates of its fiscal year end 2002 and 2001
    UDO balances based on subsequent payment activity. As a result of performing the above audit
    procedures related to the 2002 and 2001 balances, it was necessary for CCC to make a downward
    adjustment to its UDO balances of more than $325 million.




                                               1.16                          Independent Auditors’ Report
                                                                         Exhibit 1 – Material Weaknesses




   During our internal control test work on the budget execution process, we noted that 9 of 21
    apportionments/reapportionment schedules (SF-132’s) selected for testing were either erroneously
    recorded, not recorded, or recorded more than one month subsequent to the OMB approval date. The
    untimely or erroneous recording of apportionments increases the risk of inaccurate presentation and
    disclosure of budgetary resources and status of budgetary resources in the financial statements. In
    addition, if apportionments are not recorded timely, it makes it more difficult to track the status of
    budgeted resources and maintain funds control. Apportionments were not recorded timely due to:
    ¾ Delays in receiving the Accounting Requirements Memo from the Financial Management
      Division-Financial Systems and Procedures Branch (FMD-FSPB) or in updating the CORE tables
      by Financial Analysis Division-General Ledger Control Branch (FAD-GLCB);
    ¾ Receipt by the Financial Accounting Division, Financial Analysis and Reporting Branch (FAD-
      FARB) of SF-132s from Budget, Programs Branch (BUD-CPB), more than one month subsequent
      to OMB’s approval date; or
    ¾ Detailed reviews and reconciliations of apportionment transactions not being adequately
      performed to ensure that these transactions were recorded in the proper period.

Recommendations:

We recommend that FSA/CCC:

26. Continue to perform monthly reconciliations between its proprietary and budgetary accounts based on
    written procedures. However, in addition to the current practice, CCC should begin to perform timely
    follow-up on inconsistent or abnormal budgetary to proprietary relationships found during the review
    process to ensure the balances are properly adjusted and are an accurate reflection of current financial
    events.

27. Should enhance its CORE system capabilities as soon as is practical to record obligations as incurred
    and manage funds control edits at the transaction level. In the interim however, CCC should develop
    entity-wide polices and procedures for management to perform adequate review of all obligations,
    which will help to ensure that balances are accurately and timely adjusted on a monthly basis. The
    process should provide for central management control and review, to ensure adequate support for
    recorded amounts exists and that sufficient consideration is given to the legitimacy of unliquidated
    obligation amounts.

28. Enhance policies and procedures to ensure that a more thorough management review is performed of
    monthly adjustments to account balances and to assist department staff in recording apportionments in
    a timely manner. Changes in current policies should address the reasons documents are not processed
    timely or internal accounting guidance is not developed and issued on a timely basis by the
    responsible CCC departments. In addition, to provide management with the ability to monitor
    progress in this area, CCC should develop a system to track apportionments from the time they are
    received, to ensure timely recording of the budget authority.

29. Re-assess the roles and responsibilities of each branch office involved with the budget execution
    process, to ensure that appropriate resources and tools are available to timely achieve the budget
    execution reporting objectives established by management and authoritative guidance.




                                               1.17                          Independent Auditors’ Report
CONSOLIDATED FINANCIAL STATEMENTS
